DEBOR AH C. TREJO
deborah.trejo@kempsmith.com
512 226-0005

February 3, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, D.C. 20543
RE:

No. 19-687, League of United Latin American Citizens v. Edwards
Aquifer Authority

Dear Mr. Harris:
I am writing on behalf of respondent to request an extension of time in which
to file the opposition to the petition for a writ of certiorari in this case. The petition
was filed on November 26, 2019; respondent waived its right to respond on December
23, 2019; and the Court requested a response on January 21, 2020. The response is
currently due, with no extensions, on February 20, 2020. I am requesting one 30-day
extension, through March 23, 2020. An extension of that length will permit counsel
for respondent to review and respond to the petition and is necessary due to the press
of other business before other courts.
Please let me know if you require any further information. Thank you very
much for your time and assistance.
Very truly yours,
KEMP SMITH LLP

By:
Deborah C. Trejo

cc:

Allison J. Riggs
221 N. Kansas St.
Suite 1700
El Paso, TX 79901
915 533-4424
Kempsmith.com

11212.05224/DTRE/MISC/1733475v.1

919 Congress Ave.
Suite 1305
Austin, TX 78701
512 320-5466
Kempsmith.com

3800 E. Lohman Ave.
Suite C
Las Cruces, NM 88011
575 527-0023
Kempsmith.com

